               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




             Financial Controls Over
            Automated Postal Centers

         Management Advisory Report




                                              May 17, 2012

Report Number FI-MA-12-007
                                                                         May 17, 2012

                                                           Financial Controls Over
                                                         Automated Postal Centers

                                                       Report Number FI-MA-12-007



IMPACT ON:
U.S. Postal Service automated postal       chargebacks more than tripled from the
centers (APC) – a convenient self-         previous month, which amounted to
service kiosk, serving as an alternative   27 percent of all chargebacks in
to the full-service counter – and the      calendar year 2011. Because of this
customers who use APC services.            recent increase, vast improvements to
                                           credit card security features, rapidly
WHY THE OIG DID THE AUDIT:                 growing technology, and the popularity
To validate the effectiveness and          of self-service kiosks, we believe the
sufficiency of system verification         Postal Service should revisit AVS.
controls, such as limiting the number of
transactions per card per day, to          WHAT THE OIG RECOMMENDED:
minimize fraudulent APC credit and         We recommended management
debit card purchases and to evaluate       conduct and document a feasibility
the effectiveness of internal controls     study and
over APC stock examinations.                        as appropriate, to reduce the
                                           number and amount of credit card
WHAT THE OIG FOUND:                        chargebacks and reduce costs
Controls over APC stock examinations       associated with handling chargebacks.
were effective; however, opportunities
exist for the Postal Service to reduce     WHAT MANAGEMENT SAID:
fraudulent credit and debit card           Management generally agreed with our
purchases. Management implemented          recommendation. They will review the
many security measures to significantly    level of chargebacks at the end of fiscal
reduce the number and amount of credit     year 2013 and complete a cost benefit
card chargebacks (reversals of             analysis by March 2014. The analysis
previously settled transactions). They     will include costs associated with the
could further reduce chargebacks and       software that provides print-on-demand
the cost of investigating suspicious       stamps at APC kiosks.
credit card activity by implementing
                                           AUDITORS’ COMMENT(S):
                                           The OIG considers management’s
                                           comments responsive to the
                                           recommendation and corrective actions
Management did not previously              should resolve the issues identified in
                because they believed      the report.
the security measures in place were
sufficient. However, in December 2011,     Link to review the entire report
Date: May 17, 2012

MEMORANDUM FOR:             KELLY M. SIGMON
                            VICE PRESIDENT, CHANNEL ACCESS

                            ELIZABETH SCHAFER
                            TREASURER




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Management Advisory Report – Financial Controls
                            Over Automated Postal Centers
                            (Report Number FI-MA-12-007)

This report presents the results of our review of the financial controls over automated
postal centers (Project Number 11BG018FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director, Policy
Formulation and Financial Controls, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Paul Vogel
    Karen C. Mastervich
    Corporate Audit and Response Management
Financial Controls Over Automated Postal Centers                                                                        FI-MA-12-007



                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Automated Postal Centers Security Features .................................................................... 1

Chargebacks........................................................................................................................ 3

Recommendation ................................................................................................................ 4

Management’s Comments .................................................................................................. 5

Evaluation of Management’s Comments ............................................................................ 5

Appendix A: Additional Information..................................................................................... 6

   Background ...................................................................................................................... 6

   Objectives, Scope, and Methodology ............................................................................. 6

   Prior Audit Coverage ....................................................................................................... 7

Appendix B: Management’s Comments ............................................................................. 8
Financial Controls Over Automated Postal Centers                                                            FI-MA-12-007




Introduction

This report presents the results of our review of financial controls over automated postal
centers (APC) (Project Number 11BG018FF000). Our objectives were to determine
whether system verification controls for APCs were in place and sufficient to minimize
fraudulent credit and debit card purchases and whether internal controls over APC stock
examinations were effective. This review addresses financial risk. See Appendix A for
additional information about this audit.

The APC is a self-service, automated retail kiosk placed in retail lobbies to enable
customers to ship packages, mail letters, buy stamps, and pay Post Office™ box fees.
The goal of the APC program is to provide customers with a convenient, self-service
alternative to the full-service counter. In fiscal year (FY) 2011, 2,492 APC kiosks
generated nearly $545 million in revenue.

Conclusion

Internal controls over APC stock examinations were effective; however, we identified
opportunities to reduce fraudulent credit card purchases related to APC kiosks.
Specifically, although the U.S. Postal Service implemented many security measures to
help prevent and detect fraudulent debit and credit card activity and has significantly
reduced the number of fraudulent credit card transactions and the amount of credit card
chargebacks since 2009, 1 opportunities exist for management to further reduce credit
card chargebacks and other costs associated with investigating suspicious credit card
activity. In addition, opportunities exist to reduce costs associated with handling
                                                                         2
chargebacks by

Management did not previously                    because they believed that security
measures already implemented would significantly reduce the number of fraudulent
credit card transactions and the amount of fraudulent credit card activity. However,
between November and December 2011, the amount of credit card chargebacks more
than tripled to $29,592 and accounted for 27 percent of all chargebacks in 2011.
Because of the recent increase in chargeback activity, rapidly growing technology, vast
improvements to credit card security features, and the popularity of self-service kiosks,
we believe the Postal Service should revisit

Automated Postal Centers Security Features

An important factor in controlling fraud is implementing security measures that can
adapt to the level of risk in each transaction. Since the introduction of kiosks in 1998,
management has continuously implemented security measures to detect and prevent
credit and debit card fraud. Specifically, management initiated a                  ,3

1
    A chargeback occurs when the financial institution reverses a previously settled credit or debit card transaction.
2
    A system used to verify the address of a person claiming to own a credit card.
3




                                                              1
Financial Controls Over Automated Postal Centers                                               FI-MA-12-007




                                                                                       In
addition, the Postal Service periodically monitors all credit card activity. For example,
management has used monitoring to identify transactions
                                                         anomalies such as transactions
                                                                          , and activity
where                                                      If suspicious credit card activity
is identified, management can take immediate action to restrict the user from making
further purchases at the APC.

Most of the risk associated with the APC self-service kiosks rests with credit card
purchases. Credit card fraud is on the rise, increasing 5 percent between 2009 and
2010. 4 Debit cards do not present as much risk to merchants as credit cards because
customers must enter a personal identification number (PIN) to complete a purchase
and the bank limits the debit card purchase to the customer’s available bank balance at
the time of the purchase.


During the audit, the U.S. Postal Service Office of Inspector General (OIG) reviewed the
frequency of the stamp stock counts of the APC kiosks and field-tested internal security
controls for credit and debit card transactions for APCs. We judgmentally selected five
APC kiosks in the Dallas, TX area and tested the following controls that management
put in place since first putting the kiosks into service in 1998:




We reviewed the APC credit examination histories in the Postal Service’s Accounting
Data Mart for October 2009 through September 2010. Based on the items we reviewed,
the Postal Service conducted APC stock examinations quarterly, as required. In
addition, we examined the five internal security measures listed previously and found
they were in place and operating as intended.



4
  Consumer Reports, “House of Cards: Why Your Accounts Are Vulnerable to Thieves,” June 2011
(http://consumerreports.org).


                                                      2
Financial Controls Over Automated Postal Centers                                                   FI-MA-12-007



Chargebacks

The Postal Service reduced the number and amount of credit card chargebacks from
2009 to 2011. Although management accepts some level of credit card fraud risk with a
self-service kiosk, we believe they could further diminish credit card chargebacks by
implementing additional credit card security measures to prevent loss due to theft or
fraud from credit cards.

In 2009, the U.S. Postal Inspection Service (Inspection Service) took over monitoring
credit card activity for the Postal Service because they had more resources and the
authority to take investigative action. For example, in addition to analyzing for anomalies
as mentioned previously, the Inspection Service could set up




                           5
                        of the APC kiosks in areas with known or suspected fraudulent
activity. Since 2009, management has seen a significant reduction in chargeback
activity, as shown in Table 1.

                                      Table 1: APC Chargebacks

                         Calendar             Number of                  Amount
                           Year              Chargebacks                Expensed
                           2009                  8,739                     $316,853
                           2010                  4,239                      164,748
                           2011                  3,093                      111,358
                              Total             16,071                     $592,959
                      Source: Postal Service Payment Technologies specialist.


In April 2005, the Postal Service Payment Technologies Office contacted major credit
card representatives 6 to obtain                     requirements for APC kiosk credit
card purchases. The AVS requires purchasers to enter the billing ZIP Code associated
with the credit card. Implementing a billing ZIP Code feature could reduce the number of
fraudulent chargebacks for non-face-to-face transactions by cross-referencing the
cardholder’s billing ZIP Code information with the card issuer’s records. In addition,

                                                        The AVS billing address ZIP
Code security feature is already in use in other businesses such as gas stations, retail
merchants, and some fast food restaurants.

5




 The major credit card companies – American Express; Discover Financial Services; JCB International Credit Card
Company, Ltd.; MasterCard Worldwide; and Visa International – founded the Payment Card Industry Security
Standards Council in 2006.


                                                        3
Financial Controls Over Automated Postal Centers                               FI-MA-12-007




Subsequent to April 2005, the Postal Service decided to                          for APCs;
however, limited resources and other priorities within the Treasury office kept
                                                     was canceled because management
and the Inspection Service believed the security measures already implemented would
sufficiently address chargeback fraud. The                   who was advising the APC
program office believed
                                                          only consider it a slight
inconvenience to input ZIP Codes if the approval required it. We were unable to discuss
the issue with the manager who made the ultimate decision to



                      the decision not to                and could not provide any
written documentation of research or analysis to support the decision. We held
discussions with a field postal inspector working APC credit card fraud who believes
that AVS could reduce credit card fraud further.




Although management previously decided not to                      in December 2011
credit card chargebacks more than tripled from the previous month to $29,592 and
accounted for 27 percent of all chargebacks in calendar year 2011. In addition, APC
management is currently upgrading key components of the existing APC kiosks to
convert them from dispensing stamp sheetlets to printing on-demand Forever Postage
stamps. Additionally, management plans to obtain an additional 300 kiosks from the
current supplier. Because of the recent increase in chargeback activity, unavailable
documentation to support the decision not to                   rapidly growing
technology, vast improvements to credit card security features, and the popularity of
self-service kiosks, we believe the Postal Service should revisit
Management should specifically address AVS and other related payment technology
verifications that may be available and determine any cost savings that could be
available with new technology, and the costs associated with implementing such
technology. A written cost-benefit analysis should include opportunities to further reduce
chargebacks and potential opportunities to reduce the cost associated with chargeback
activities.

Recommendation

We recommend the vice president, Channel Access, coordinate with the treasurer, to:

1. Conduct and document a feasibility study and implement, as appropriate, Address
   Verification System security features to reduce the number and amount of credit
   card chargebacks and reduce costs associated with handling chargebacks.




                                                   4
Financial Controls Over Automated Postal Centers                                FI-MA-12-007




Management’s Comments

Management agreed with the finding and recommendation. They stated they will review
the level of chargebacks at the end of FY 2013 and determine by March 2014 if a full
cost-benefit analysis is required. In addition, the delay until March 2014 will enable
management to better identify costs associated with the new retail software that will
allow print-on-demand stamps at APC kiosks.

Management expressed concern related to the report’s conclusion that reduced
chargebacks will result in reduced monitoring costs. In addition, they noted other
statements that were inaccurate or could be misleading, including that management
cannot cancel debit or credit cards that have been misused; many types of cards, not
just prepaid Visa® cards, have restrictions on use; the AVS technology inherently limits
the problem                                                                  and the
Treasury office decided                      after April 2005. Management also stated
that checking cards against user identification is against some card issuer rules.

See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.

We clarified the report to address management’s concerns. Specifically, we removed all
references to costs associated with monitoring as well as the implication that Visa® is
the only card with restrictions. We clarified the Postal Service’s ability to cancel a card
that has been misused,




                                                   5
Financial Controls Over Automated Postal Centers                               FI-MA-12-007



                             Appendix A: Additional Information

Background

Before 1998, the Postal Service provided self-service kiosks for customers to purchase
stamps. In 1998, Postal Service management expanded and strengthened this service
by implementing a self-service platform that evolved into the APC kiosk. The APCs give
customers access to the most frequently needed products and services up to 24 hours
a day, 7 days a week, using a touch screen that shows customers the available
services, products, and information available. All self-service kiosks accept debit and
credit cards as a form of payment. Currently, the Postal Service has placed 2,492 APC
kiosks in retail lobbies nationwide.

Merchants who accept credit cards must determine what form or forms of verification
they will use to ensure that only authorized cardholders make credit card purchases.
The most conventional form of verification is a signature the merchant collects so that
the credit card company can verify it for authentication in the event of a fraud claim. In
addition,
                                                                    The APC was
designed to be an unmanned kiosk allowing customers to complete transactions without
assistance.




Objectives, Scope, and Methodology

Our objectives were to determine whether system verification controls for APCs were in
place and sufficient to minimize fraudulent credit and debit card purchases and if
internal controls over APC stock examinations were effective. We conducted this review
from August 2011 through May 2012 in accordance with the Council of the Inspectors
General on Integrity and Efficiency, Quality Standards for Inspection and Evaluation.
We reviewed counts of the APC storage repository and kiosk inventories generated
from October 2009 through September 2010. We conducted on-site field testing of APC
system controls during September and October 2011. We interviewed Postal Service
officials to determine roles and responsibilities and obtained information related to APC
chargebacks. We reviewed applicable Postal Service policies. We discussed our
observations and conclusions with management on February 7, 2012, and included
their comments where appropriate.


7




                                                   6
Financial Controls Over Automated Postal Centers                                  FI-MA-12-007



We assessed the reliability of computer-generated data from the Accounting Data Mart,
Bank of America® Merchant System, American Express, and Discover Network for
obtaining chargeback data. We used various data analysis techniques to perform
specific internal control and transaction tests. We determined that the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                                   7
Financial Controls Over Automated Postal Centers               FI-MA-12-007




                           Appendix B: Management’s Comments




                                                   8
Financial Controls Over Automated Postal Centers       FI-MA-12-007




                                                   9
Financial Controls Over Automated Postal Centers        FI-MA-12-007




                                                   10
